    Audit Report




    OIG-09-010
    Audit of the Financial Management Service’s Fiscal Years 2008
    and 2007 Schedules of Non-Entity Government-Wide Cash
    November 19, 2008




    Office of
    Inspector General
    Department of the Treasury




0
                                          DEPARTMENT OF THE TREASURY
                                                W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                                 November 19, 2008


             MEMORANDUM FOR JUDITH R. TILLMAN, COMMISSIONER
                            FINANCIAL MANAGEMENT SERVICE

             FROM:                     Michael Fitzgerald /s/
                                       Director, Financial Audits

             SUBJECT:                  Audit of the Financial Management Service’s
                                       Fiscal Years 2008 and 2007 Schedules of Non-Entity
                                       Government-wide Cash


             I am pleased to transmit the attached audited Financial Management Service’s
             (FMS) Fiscal Years (FY) 2008 and 2007 Schedules of Non-Entity Government-wide
             Cash (the Schedules). Under a contract monitored by the Office of Inspector
             General, KPMG LLP, an independent certified public accounting firm, performed an
             audit of the Schedule of Non-Entity Government-wide Cash for FY 2008. The
             FMS’s Schedule for FY 2007 was audited by Clifton Gunderson LLP, another
             independent certified public accounting firm, whose report dated November 8,
             2007, expressed an unqualified opinion. Both contracts required that the audit be
             performed in accordance with generally accepted government auditing standards;
             applicable provisions of Office of Management and Budget (OMB) Bulletin
             No. 07-04, Audit Requirements for Federal Financial Statements; and the
             GAO/PCIE Financial Audit Manual.

             The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                      •   Independent Auditors’ Report;
                      •   Independent Auditors’ Report on Internal Control Over Financial
                          Reporting; and
                      •   Independent Auditors’ Report on Compliance and Other Matters.

             In its audit of FMS’ Schedule, KPMG LLP found:

                      •   the Schedule presents fairly, in all material respects, the balance of
                          Non-Entity Government-wide Cash as of September 30, 2008,
                          in conformity with U.S. generally accepted accounting principles,
Page 2


      •   no matters involving internal control and its operations that are considered
          material weaknesses, and

      •   no instances of reportable noncompliance with laws and regulations tested.

KPMG LLP will also issue a management letter dated November 17, 2008,
discussing certain matters involving internal control and other operational matters
that were identified during the audit but were not required to be included in the
auditors’ reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit in accordance with generally accepted government auditing standards, was
not intended to enable us to express, and we do not express, an opinion on FMS’
Schedules or conclusions about the effectiveness of internal control or compliance
with laws and regulations. KPMG LLP is responsible for the attached auditors’
reports dated November 17, 2008 and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:   Kenneth E. Carfine
      Fiscal Assistant Secretary
                 U.S. DEPARTMENT OF THE TREASURY
                 FINANCIAL MANAGEMENT SERVICE

Independent Auditors’ Reports and Schedules of Non-Entity Government-Wide Cash

                         September 30, 2008 and 2007
                                U.S. DEPARTMENT OF THE TREASURY
                                FINANCIAL MANAGEMENT SERVICE


                                             Table of Contents



                                                                  Page

Independent Auditors’ Report                                        1

Independent Auditors’ Report on Internal Control                    2

Independent Auditors’ Report on Compliance and Other Matters        6

Schedules of Non-Entity Government-wide Cash                        7

Notes to Schedules of Non-Entity Government-wide Cash               8
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                       Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the accompanying Schedule of Non-Entity Government-wide Cash (GWC) of the U.S.
Department of the Treasury’s Financial Management Service (FMS) as of September 30, 2008 (hereinafter
referred to as the “Schedule”). This Schedule is the responsibility of FMS management. Our responsibility
is to express an opinion on this Schedule based on our audit. The accompanying Schedule as of September
30, 2007 was audited by other auditors whose report thereon dated November 8, 2007, expressed an
unqualified opinion on that Schedule.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain
reasonable assurance about whether the Schedule is free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
FMS’s internal control over financial reporting relating to GWC. Accordingly, we express no such opinion.
An audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedule, assessing the accounting principles used and significant estimates made by management, as well
as evaluating the overall Schedule presentation. We believe that our audit provides a reasonable basis for
our opinion.

In our opinion, the Schedule referred to above presents fairly, in all material respects, the balance of FMS
GWC as of September 30, 2008 in conformity with U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our report dated November 17,
2008, on our consideration of FMS’s internal control over financial reporting relating to GWC and our
tests of its compliance with certain provisions of laws and regulations relating to GWC. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide opinions on the internal control over financial
reporting or on compliance. Those reports are an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in assessing the results
of our audit.




November 17, 2008

                                                                      1

                                    KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                    a member of KPMG International, a Swiss cooperative.
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the Schedule of Non-Entity Government-wide Cash (GWC) of the U.S. Department of
the Treasury’s Financial Management Service (FMS) as of September 30, 2008 (hereinafter referred to as
the “Schedule”), and have issued our report thereon dated November 17, 2008. The Schedule as of
September 30, 2007 was audited by other auditors whose report thereon dated November 8, 2007,
expressed an unqualified opinion on that Schedule.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain
reasonable assurance about whether the Schedule is free of material misstatement.

FMS management is responsible for establishing and maintaining effective internal control relating to
GWC. In planning and performing our fiscal year 2008 audit, we considered FMS’s internal control over
financial reporting relating to GWC by obtaining an understanding of the design effectiveness of FMS’s
internal control relating to GWC, determining whether internal controls relating to GWC had been placed
in operation, assessing control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the Schedule. To achieve this purpose, we did not
test all internal controls relating to GWC relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an opinion on the
effectiveness of FMS’s internal control over financial reporting relating to GWC. Accordingly, we do not
express an opinion on the effectiveness of FMS’s internal control over financial reporting relating to GWC.

Our consideration of internal control over financial reporting relating to GWC was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in the internal
control over financial reporting relating to GWC that might be significant deficiencies or material
weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects FMS’s ability to initiate, authorize, record, process, or report financial data relating
to GWC reliably in accordance with U.S. generally accepted accounting principles such that there is more
than a remote likelihood that a misstatement of the Schedule that is more than inconsequential will not be
prevented or detected by FMS’s internal control relating to GWC. A material weakness is a significant

                                                                      2

                                    KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                    a member of KPMG International, a Swiss cooperative.
deficiency, or combination of significant deficiencies, that results in more than a remote likelihood that a
material misstatement of the Schedule will not be prevented or detected by FMS’s internal control relating
to GWC.

In our fiscal year 2008 audit, we did not identify any deficiencies in internal control over financial
reporting relating to GWC that we consider to be material weaknesses, as defined above. Exhibit I presents
the status of the prior year significant deficiency.

We noted certain matters involving internal control and other operational matters relating to GWC that we
will report to FMS management in a separate letter dated November 17, 2008.

This report is intended solely for the information and use of FMS management, the U.S. Department of the
Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 17, 2008




                                                       3
                                                                                            Exhibit I

                                 Non-Entity Government-wide Cash

                             Status of Prior Year Significant Deficiency

                                          September 30, 2008



  FMS                                                                  Action       Action in
Finding #                          Findings                           Complete      Progress

   1        Several high and moderate risk security vulnerabilities        X
            identified within the CA$HLINK II Security
            Assessment Report remain unresolved during FY2007.

   2        Security plan and configuration management documents           X
            do not accurately reflect their current operating
            environment.

   3        Several high and moderate risk security vulnerabilities        X
            affecting FMS general support systems remain
            unresolved during FY2007.

   4        The mainframe operating system utilized by the                 X
            Hyattsville Regional Operations Center (HROC) and the
            Kansas City Operations Center (KROC) was not
            supported by the vendor during a portion of the fiscal
            year.

   5        User system access is not being removed in a timely                         X
            manner upon separation of employment from FMS
            (Repeat Condition).                                                    This remains
                                                                                 open and will be
                                                                                      listed as
                                                                                   management
                                                                                  letter comment
                                                                                          #4

   6        HROC building access by separated employees and                X
            contractors is not being effectively controlled.




                                                    4
                                                                        Exhibit I (cont.)

                        Non-Entity Government-wide Cash

                    Status of Prior Year Significant Deficiency

                                September 30, 2008



7   Interconnection Security Agreements were not in place                    X
    for several CA$HLINK II system interconnections.
                                                                        This remains
                                                                      open and will be
                                                                           listed as
                                                                        management
                                                                       letter comment
                                                                               #5

8   Rules of Behavior (ROB) forms were not signed prior to        X
    obtaining access to the Treasury Offset Program (TOP)
    application.

9   Several UNIX server password settings are not                 X
    configured in accordance with FMS Policy.




                                            5
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the Schedule of Non-Entity Government-wide Cash (GWC) of the U.S. Department of
the Treasury’s Financial Management Service (FMS) as of September 30, 2008 (hereinafter referred to as
the “Schedule), and have issued our report thereon dated November 17, 2008. The Schedule as of
September 30, 2007 was audited by other auditors whose report thereon dated November 8, 2007,
expressed an unqualified opinion on that Schedule.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain
reasonable assurance about whether the Schedule is free of material misstatement.

The management of FMS is responsible for complying with laws and regulations applicable to the amounts
reflected in the Schedule. As part of obtaining reasonable assurance about whether the Schedule is free of
material misstatement, we performed tests of compliance with certain provisions of laws and regulations
relating to GWC, noncompliance with which could have a direct and material effect on the determination
of the amounts reflected in the Schedule, and certain provisions of other laws and regulations specified in
OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws and regulations applicable to FMS. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of FMS management, the U.S. Department of the
Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 17, 2008




                                                                        6
                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
                       U. S. DEPARTMENT OF THE TREASURY
                        FINANCIAL MANAGEMENT SERVICE
                       Schedules of Non-Entity Government-wide Cash
                                      (In Thousands)
                                  September 30, 2008 and 2007



                                                                    September 30

                                                             2008                  2007

Non-entity government-wide cash
(Notes 1 and 2)                                         $   364,690,866       $    70,491,723




                The accompanying notes are an integral part of these schedules.



                                              7
                            U. S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE
                     Notes to the Schedules of Non-Entity Government-wide Cash
                                      September 30, 2008 and 2007



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The Financial Management Service (FMS) is a bureau of the U. S. Department of the
            Treasury (Treasury). FMS’ mission is to improve the quality of the Federal Government’s
            financial management. FMS’ commitment and responsibility is to help its customers achieve
            success. FMS does this by linking program and financial management objectives and by
            providing financial services, information, advice, and assistance to its customers. FMS serves
            taxpayers, Treasury, federal program agencies, and government policy makers.

            The financial activities of FMS are affected by, and are dependent upon, those of the
            Treasury and the Federal Government as a whole. Thus, the accompanying schedules do not
            reflect the results of all financial decisions and activities applicable to FMS as if it were a
            stand-alone entity.

            Non-Entity accounts are those accounts that FMS holds but are not available to FMS in its
            operations. For example, FMS accounts for certain cash that the Federal Government collects
            and holds on behalf of the U. S. Government or other entities. This schedule includes the
            Non-Entity Government-wide cash accounts.

      (b)   Basis of Accounting
            The standards used in the preparation of the accompanying schedules are issued by the
            Federal Accounting Standards Advisory Board, as the body authorized to establish generally
            accepted accounting principles for Federal Government entities. Accordingly, the
            accompanying schedules are prepared in accordance with generally accepted accounting
            principles.

            The accompanying Schedules are different from the financial reports prepared by FMS
            pursuant to OMB directives that are used to monitor and control FMS’ use of budgetary
            resources.




                    This information is an integral part of the accompanying schedules.



                                                    8
                       U. S. DEPARTMENT OF THE TREASURY
                        FINANCIAL MANAGEMENT SERVICE
                Notes to the Schedules of Non-Entity Government-wide Cash
                                September 30, 2008 and 2007



(c)   Non-entity Government-wide Cash
      Non-entity Government-wide cash is held in depository institutions or Federal Reserve
      Accounts.

      Operating Cash of the U.S. Government represents balances from tax collections, customs
      duties, other revenue, federal debt receipts, and other various receipts net of cash outflows for
      budget outlays and other payments held in the Federal Reserve Banks, foreign and domestic
      financial institutions, and in U. S. Treasury Tax and loan accounts. Checks outstanding are
      netted against operating cash until they are cleared by the Federal Reserve System.

      The Treasury General Account (TGA) is maintained at the Federal Reserve Bank of New
      York (FRBNY) and functions as the government’s checking account for deposits and
      disbursements of public funds. Agencies can deposit funds that are submitted to them directly
      into either a Federal Reserve TGA or a local TGA depositary. The balances in these TGA
      accounts are transferred to the FRBNY’s TGA at the end of each day.

      The Treasury Tax and Loan (TT&L) program includes about 9,000 depositaries that accept
      tax payments and remit them the day after receipt to FRBNY’s TGA. Certain TT&L
      depositaries also hold Non-entity Government-wide Cash in interest bearing accounts. Cash
      in the TGA and the TT&L program is restricted for Government-wide operations.

      U. S. Treasury Tax and Loan Accounts include funds invested through the Term Investment
      Option program and the Repo program. Under the Term Investment Option program,
      Treasury auctions funds for a set term, usually in the range of 1 day to 3 weeks. Under the
      Repo program, Treasury invests funds through overnight reverse repurchase agreements.
      However, under both programs, Treasury reserves the right to call the funds prior to maturity
      under special circumstances.

      The Supplemental Financing Account is maintained at the Federal Reserve Bank of New
      York for the Supplementary Financing Program (SFP). The SFP is a temporary program
      announced by Treasury and the Federal Reserve on September 17, 2008, to provide
      emergency cash for Federal Reserve initiatives aimed at addressing the ongoing crisis in
      financial markets.

      Other cash is mostly comprised of Automated Clearinghouse transfers and other deferred
      items.




              This information is an integral part of the accompanying schedules.



                                               9
                             U. S. DEPARTMENT OF THE TREASURY
                              FINANCIAL MANAGEMENT SERVICE
                      Notes to the Schedules of Non-Entity Government-wide Cash
                                      September 30, 2008 and 2007



(2)   Non-Entity Government-wide Cash
      Non-Entity Government-wide Cash includes the Operating Cash of the U.S. Government, managed
      by Treasury, and foreign currency maintained by various U. S. and military disbursing offices, at
      September 30, 2008 and 2007 as follows:

                                                                             September 30,

                                                                      2008                   2007



       Operating Cash of the U.S. Government:
        Held in Depositary Institutions                          $     39,209,396    $         69,797,268
        Held in the Federal Reserve Account                            32,988,331               5,538,744
        Held in the Supplementary Financing Account                  299,491,411                        0
       Subtotal                                                      371,689,138               75,336,012
       Outstanding Checks                                             (7,415,945)              (5,634,828)
       Subtotal                                                      364,273,193               69,701,184

       Other Cash                                                        386,036                    699,419

       Subtotal                                                      364,659,229               70,400,603

       Foreign Currency                                                   31,637                    91,120

       Total                                                 $       364,690,866     $         70,491,723


      Operating Cash of the Federal Government held by depositary institutions is either insured (for
      balances up to $100,000) by the Federal Deposit Insurance Corporation (FDIC) or collateralized by
      securities pledged by the depositary institution, or through securities held under reverse repurchase
      agreements. The limit insured by FDIC was raised to $250,000 as of October 3, 2008.




                    This information is an integral part of the accompanying schedules.



                                                    10
